IN THE SUPREME COURT
OF THE UNITED STATES
No.
Tim Sundy,

Petitioner,

v.
FRIENDSHIP PAVILION ACQUISITION CO. LLC, ARSENAL REAL ESTATE
FUND II-IDF, LP, Gary Picone, Thomas Ling, Michael Weinstein, GEORGIA
DEPARTMENT OF TRANSPORTATION,
Respondents.

PROOF OF SERVICE

As required by Supreme Court Rule 29, I, Tim Sundy, Petitioner pro se,
declare that I have served the enclosed REVISED PETITION FOR A WRIT OF
CERTIORARI on Robert C. Khayat, Jr., The Khayat Law Firm, 75 Fourteenth
St., Ste 2750, Atlanta, GA

30309; counsel for all parties in the above

proceeding, by depositing an envelope containing one copy of the above petition
in the United States mail properly addressed and with first-class postage
prepaid,
I declare under penalty of perjury that the foregoing is true and correct.

This 22 August 2021.

Tim Sundy, pro^se \
227 Sandy Springs Place, Ste D-465
Sandy Springs, GA 30328

